               Department of Veterans Affairs
               Office of Inspector General



                    Office of Healthcare Inspections

Report No. 12-04631-313



             Healthcare Inspection
   Gastroenterology Consult Delays
    William Jennings Bryan Dorn
          VA Medical Center 

      Columbia, South Carolina





September 6, 2013

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
                   Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted a review
to evaluate policies and practices related to gastroenterology (GI) consult and resource
management at the William Jennings Bryan (WJB) Dorn VA Medical Center (the facility)
in Columbia, SC. The purpose of the review was to determine whether deficient
practices contributed to or caused delays in care, and whether facility leaders
appropriately addressed clinical managers’ concerns.

We substantiated the allegations and found additional factors that contributed to the
events. Veterans Integrated Service Network (VISN) and facility leaders became aware
of the GI consult backlog in July 2011 involving 2,500 delayed consults, 700 of them
“critical.” A funding request was made at that time and the VISN awarded the facility
$1.02M for fee colonoscopies in September 2011. However, facility leaders did not
assure that a structure for tracking and accountability was in place and by December,
the backlog stood at 3,800 delayed GI consults. The facility developed an action plan in
January 2012 but had difficulty making progress in reducing the backlog. An adverse
event in May 2012 prompted facility leaders to re-evaluate the GI situation, and facility,
VISN, and Veterans Health Administration leaders aggressively pursued elimination of
the backlog. This was essentially accomplished by late October 2012. However, during
the review “look-back” period, 280 patients were diagnosed with GI malignancies, 52 of
which had been associated with a delay in diagnosis and treatment. The facility
completed 19 institutional disclosures and 3 second-level reviews are still pending. As
of May 2013, nine patients and/or their families had filed lawsuits.

A confluence of factors contributed to the GI delays and hampered efforts to improve
the condition. Specifically, the facility’s Planning Council did not have a supportive
structure; Nursing Service did not hire GI nurses timely; the availability of Fee Basis
care had been reduced; low-risk patients were being referred for screening
colonoscopies, thus increasing demand; staff members did not consistently and
correctly use the consult management reporting and tracking systems; critical VISN and
facility leadership positions were filled by a series of managers who often had collateral
duties and differing priorities; and Quality Management was not included in discussions
about the GI backlogs.

The GI consult backlog has been the subject of multiple reviews and recommendations,
and overall, the conditions have improved and the GI backlog has resolved. However,
continued vigilance is needed to ensure that the conditions do not recur. We
recommended that the VISN, in accordance with the Administrative Investigative Board
conclusions and recommendations, take appropriate action in relationship to facility
leadership deficits contributing to the GI consult backlog.




VA Office of Inspector General                                                                   i
                   Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC


Comments
The VISN Director concurred with our recommendation and provided an acceptable
action plan. (See Appendixes A, pages 15–17 for the Director’s comments.) We will
follow up on the planned actions until they are completed.




                                                           JOHN D. DAIGH, JR., M.D.
                                                          Assistant Inspector General for
                                                            Healthcare Inspections




VA Office of Inspector General                                                                   ii
                     Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC



                                                Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted a
review to evaluate policies and practices related to gastroenterology (GI) consult and
resource management at the William Jennings Bryan (WJB) Dorn VA Medical Center
(the facility) in Columbia, SC. The purpose of the review was to determine whether
deficient practices contributed to or caused delays in care, and whether facility leaders
appropriately addressed clinical managers’ concerns.

                                            Background 

The facility provides a broad range of inpatient and outpatient medical, surgical, mental
health, and long-term care services.         It has 95 operating hospital beds and
75 community living center beds. Outpatient care is also provided at seven community
based outpatient clinics located in Anderson, Florence, Greenville, Orangeburg, Rock
Hill, Spartanburg, and Sumter, SC. The facility serves a veteran population of about
410,000 throughout South Carolina and is part of Veterans Integrated Service Network
(VISN) 7.

Importance of colorectal cancer (CRC) screening. CRC is the third most common
cancer and the second leading cause of cancer deaths in the United States. A July
2010 Centers for Disease Control and Prevention publication reported that more than
22 million Americans remain unscreened for CRC despite the availability of effective
screening tests.1

In almost all cases, CRC develops from pre-cancerous polyps (abnormal growths) in the
colon or rectum. Screening tests can detect polyps and/or bleeding from polyps so that
they may be removed before they turn into cancer. Colonoscopies have the potential to
reduce mortality due to CRC by 70-80 percent. In 2008, the U.S. Preventive Services
Task Force and other federal agencies developed and endorsed updated screening
guidelines for the prevention of CRC for asymptomatic adults aged 50 and older.2 The
recommended screening tests include:

    	 Fecal occult blood test (FOBT) and fecal immunochemical test (FIT), which
       detect blood in a stool sample.

    	 Flexible sigmoidoscopy examination, which allows physicians to visually inspect
       the interior walls of the rectum and the lower part of the colon using a thin,
       flexible, lighted tube called a sigmoidoscope.

    	 Colonoscopy examination, which allows physicians to visually inspect the interior
       walls of the rectum and the entire colon using a thin, flexible, lighted tube called a
       colonoscope. Samples of tissue or cells may be collected for closer examination,
       and most polyps may be removed.

1
  CDC Vitalsigns is a monthly publication from the National Center for Chronic Disease Prevention and Health 

Promotion, Division of Cancer Prevention and Control.

2
  The 2008 USPSTF CRC screening recommendations are an update of the 2002 guidelines. 



VA Office of Inspector General                                                                                   1
                     Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC


The Veterans Health Administration (VHA) requires all eligible veterans at average or
high risk3 for CRC who may benefit to be offered CRC screening. Unless the primary
screening method is colonoscopy, any positive screening tests (FOBTs, FITs,
sigmoidoscopies) must be followed up with a diagnostic colonoscopy, unless
contraindicated. If indicated, a diagnostic colonoscopy must be performed within 60
days of the positive screening test.

GI procedure rooms and staffing.

Gastroenterologists and other specially trained physicians perform endoscopies (e.g.
colonoscopy or sigmoidoscopy) for the purposes of disease screening, diagnosis,
and/or treatment. Endoscopies are performed in specially equipped procedure rooms
by teams comprised of a physician endoscopist, one or two GI nurses, and a GI
technician. Additional nurses cover the pre- and post-op clinic areas.

Endoscopy takes an average of 30–45 minutes, including pre-procedure preparation
and moderate sedation administration. The facility’s GI Clinic receives an average of
150 consults per week; about 75–85 percent are for endoscopic procedures.
Colonoscopy consults are triaged by a nurse practitioner or GI provider who determines
whether to schedule a clinic visit or a procedure.

At the time of the complaint, the facility had four procedure rooms but usually operated
only three due to insufficient staffing.

Allegations

In 2011–2012, the facility was unable to respond timely to thousands of GI consults and
several patients experienced delayed diagnosis and treatment as a result. The facility,
VISN, and VHA implemented corrective actions, but some problems persisted. On
September 20, 2012, a confidential complainant alleged that efforts to address the GI
backlog had been fraught with problems and that the situation was “worse.”
Specifically, the complainant alleged that:

    	 Nursing leadership failed to fill critical GI nurse positions.

    	 Non-clinical staff and leaders were making clinical decisions regarding patient
       care and were not permitting clinical leaders to participate in decision-making.
       As a result, patient care was being compromised and the department is in
       “chaos.”

    	 Of $1M in funds given by the VISN to pay for Fee Basis4 colonoscopies, only
       $200K was actually spent for this service.




3
  Those with a family history of CRC in first-degree relatives and those with a personal history of adenomatous

polyps or inflammatory bowel disease.

4
  Fee basis care is non-VA/private sector care paid for by VA when the service is not available in a timely manner 

within VHA due to capability, capacity, or accessibility. 



VA Office of Inspector General                                                                                   2
                     Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC


Consolidated Timeline of Events

The facility has periodically experienced GI consult delays, notably in about 2000 and
again around 2006–2007. In the past, the facility has been able to reduce the backlogs
through fee basis referrals and sharing agreements.

In FY 2009, a GI performance improvement team made recommendations for
improvement and a FOBT WorkGroup developed an action plan; however, it did not
appear that the recommendations were implemented.

In late 2009–2010, multiple staff changes negatively impacted the GI Service’s ability to
respond timely to consult requests and positions were not being backfilled at that time.
The facility was not meeting the 60-day timeframe for completing diagnostic
colonoscopies after a positive CRC screening, and GI Service was often scheduling
procedures 4–5 months in the future.

In July 2011, the GI section chief reported his concerns about the growing backlog of GI
consults to his supervisor, and the Chief of Medicine (CoM) notified his supervisor and
other facility leaders about the need for prompt actions to address about 2,500
backlogged consults, 700 of them “critical.” In early August, the acting Associate
Director requested more than $12M from the VISN to pay fee claims and purchase fee
colonoscopies and echocardiograms. The funding was received in September and
included $1.02M for fee colonoscopies.

The Business Office was not informed that any of the VISN funding had been
earmarked for GI cases and did not obligate funds for this purpose. From August–
December 2011, the facility spent less than 100K5 on GI fee care for about 250 patients
as part of their already established GI fee consult process. The facility did not have a
list of the original 700 patients reportedly needing urgent consults so could not tell us
whether any of the 250 patients who did receive GI fee care were part of that 700.

In December, the facility closed one of its GI procedure rooms due to a shortage of
nursing staff and the GI Service cancelled all procedures for this room; an estimated
700 patients who had been scheduled would now also need to be authorized for fee
colonoscopies in the community.6 At that time, there were more than 3,880 GI
consultations pending action.

In January 2012, a GI Task Force developed a plan that included conducting an initial
review of pending GI consults to determine urgency and appropriate scheduling,
temporarily reassigning staff, increasing capacity by opening additional endoscopy
suites and utilizing sharing agreements, and adding Saturday clinics. The last phase of
the plan involved developing an emergency fee care contract for GI services within the
community to address any surplus consults. While the facility worked to implement the
action plan, progress in some areas was slow.


5
 The VACO site visit team reported this number to be $108K. 

6
  The estimated 700 cancellations involved procedures scheduled to the 3rd endoscopy room several months in the

future.



VA Office of Inspector General                                                                                3
                      Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC


In February 2012, the OIG conducted a routine Combined Assessment Program review7
which noted that patients with positive CRC screening results were not routinely
receiving follow-up diagnostic testing within the required timeframe (60 days).

In May 2012, a patient (referred to as the index patient in the remainder of this report)
presented to the facility’s Emergency Department complaining of a GI-related issue and
was ultimately diagnosed with cancer.8 In reviewing this case, the facility found a delay
in GI care which resulted in patient harm and completed an institutional disclosure to the
patient the following month. The patient expired in August 2012.

In June 2012, a complainant made allegations to the OIG concerning insufficient nurse
staffing, delayed diagnosis and treatment in the oncology and GI specialties, an
ineffective Planning Council, and non-responsiveness of facility leaders to clinical
concerns. The OIG requested VHA’s Office of the Medical Inspector (OMI) to evaluate
the allegations.

In August 2012, the facility underwent four external reviews. An expert panel was
convened to assess process and patient flow issues in GI Service. The OMI reviewed
allegations involving nurse staffing and duties, the environment of care, equipment
maintenance, and delays in diagnosis and treatment in GI Clinic. A VA central Office
(VACO) subject matter expert (SME) team conducted a site visit to assist in identifying
patients from the GI backlog list who were “in need of GI services” and arranged for
additional GI physicians, nurses, and technicians from across VHA to work down the GI
consult backlog during September. Also, a VHA task force on specialty care assessed
GI Service’s physician productivity, access, and staffing concerns.

Also in August, the facility reported via an Issue Brief that it had made substantial
progress in developing emergency contracts and non-VA care agreements for GI
services; hired additional nurses, GI technicians, and clerks; opened the fourth
procedure room; and continued with Saturday clinics. A new FOBT Coordinator
position was created and pending selection, and the service agreement between
Primary Care and GI Service was changed to reflect FIT testing as the appropriate
protocol for low risk patients.

In September 2012, the OIG received additional allegations (as enumerated on page 2)
that the facility’s actions to address the GI consult backlog had caused “chaos” within
the GI Service.

In late October 2012, the Deputy Under Secretary for Operations and Management
(DUSHOM) chartered an Administrative Investigation Board (AIB) to “conduct a
thorough investigation into allegations of clinical mismanagement” related to the GI
consult backlog. The AIB was completed on March 25, 2013, and essentially confirmed
that facility leaders had not taken prompt actions to address the issues.



7
  Report No. 12-00371-157, Combined Assessment Program Review of the William Jennings Bryan Dorn VA 

Medical Center, Columbia, South Carolina, April 18, 2012. 

8
  In this case, the patient had a sore throat and difficulty swallowing and was later diagnosed with esophageal 

cancer. 



VA Office of Inspector General                                                                                      4
                   Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC


After identifying and reviewing the index patient’s case in May, the facility conducted a
review of the 2011 and 2012 Cancer Registries and Positive Pathology for GI
Malignancies. As of May 28, 2013, there were 280 patients diagnosed with GI
malignancies, 52 of which were associated with a delay in diagnosis and treatment.
The facility conducted 19 institutional disclosures providing patients and their family
members with specific details of the adverse event or delay of care and their right to file
a claim. Three additional cases are being reviewed for possible disclosure. The
remaining 30 cases did not meet criteria for institutional disclosure as determined by
clinical staff during a second-level review.

As of July 2013, the GI consult backlog had been fully addressed. The facility is
monitoring the timeliness of diagnostic colonoscopy after positive CRC screening, and
in January–February 2013, the facility’s compliance with this standard was 91 and 96
percent, respectively.

                            Scope and Methodology 

We conducted a site visit November 5–9, 2012, and February 25–28, April 22–25, and
May 6–9, 2013. We interviewed the complainant; the VISN 7 Director, former and
current acting Chief Medical Officers (CMOs), and Chief Financial Officer (CFO);
leaders for the Subspecialty Productivity and Access Team and the GI Clinic Flow SME;
facility Director, Chief of Staff (CoS), Chief Nurse Executive (CNE), former and current
CoMs, Chief of GI, several gastroenterologists and GI nurses, GI case managers, clinic
scheduling clerks, Chief of the Business Office, Chief of Finance, Chief of HRMS,
Quality Manager, and other staff knowledgeable about the issues.

We reviewed the AIB and its testimony. We reviewed VISN Issue Briefs; the GI status
report updates and action plans; Planning Council, Health Systems Council, and
Consult Management meeting minutes; Power Point training presentations; the VISN 7
Financial review report; Fee Basis authorizations and budgets; internal and external
efficiency reports; and email communications.

Our review focused primarily on events and actions between July 2011 when facility and
VISN leaders first became aware of the GI backlog through August 2012 when
aggressive VACO actions were initiated to address the backlog. We did not review the
clinical issues associated with the backlogged GI consults as the facility, VISN, and
VHA had already conducted an extensive evaluation of these issues and had assessed
individual cases to determine patient harm and need for disclosure.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                  5
                   Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC



                                 Inspection Results 

During the course of this review, we interviewed more than 20 clinical providers and
administrative staff about the GI consult delays and asked for their perspectives on the
possible root causes contributing to the failure. The narrative that emerged spans many
years and involves a variety of complex factors.

We ultimately substantiated the allegations and found additional factors that contributed
to the events. While we determined that facility leaders did not act promptly when first
becoming aware of the GI backlog, they did take actions starting in January 2012. The
facility had difficulty making progress, in part because of data discrepancies (e.g., the
list of patients with GI consults was frequently being revised), staffing constraints, fee
care limitations, and the availability of colonoscopy slots with community contractors.
The facility’s open/active GI consult situation did not improve from December 2011
(3,800) to June 2012 (4,505).

During the AIB, the former CoS testified that two things prompted leadership to
reexamine the GI consult situation. The first was when the index patient was
identified—he “was a real patient, he suffered, he is now deceased.” The second was
when the facility “…went from January to the end of May and we didn't make any
progress. We didn't increase significantly the backlog but we didn't decrease the
backlog either.”

Issue 1.       Management of GI-Related Deficiencies

The complainant described an environment where Nursing leaders were refusing to fill
important GI nursing positions without explanation and with no back-up plan; non-
clinical facility leaders were making clinical decisions without seeking clinical input; and
funds provided for fee basis colonoscopies were not used for that purpose. The
complainant reported that the GI Service was in “chaos” insofar as facility leaders
implemented a corrective action plan that placed patients at risk for unnecessary
preparations and procedures, and also committed to a remediation deadline that was
unworkable.

Allegation 1. GI Staffing

We substantiated that GI staffing was not optimal and that critical nursing positions went
unfilled for months. It was difficult to determine specifically when some critical positions
were vacant, primarily because interviewees recalled dates and events differently or
documentation was sparse. However, most GI managers and clinicians we interviewed
relayed similar accounts of staffing deficiencies, positions not being backfilled, and
difficulty getting approval for new hires. During the AIB, the former CoS testified that
the GI Service lacked nurses and clerks, and that the problem was “fairly long standing.”
We found several factors contributed to this condition:




VA Office of Inspector General                                                                  6
                    Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC


Planning Council

The facility’s Planning Council9 was the coordinating body for the review of current and
planned resources including human resources. The former CoS testified during the AIB
that “The Planning Council which had to do with requests for new FTEs [full-time
employees], was primarily an administrative committee rather than having clinical staff
on it, so it was hard to get clinical staff through this committee.” The CNE also told us
that the Council’s membership was heavily administrative. Our review of Planning
Council minutes for FY 2011 reflected that the administrative membership outnumbered
the clinical membership by 4:1. Further, the AIB concluded that responsible committees
“…were not effective in approving vacancies to meet patient care needs and in fact
contributed to the delay in approving/hiring new staff.”

The facility has addressed the structure and membership of the Planning Council (now
called the Resource Management Board) and there is a more equal balance of clinical
and administrative members.

Human Resources (HR) Prioritization List (Formerly the “Request to Commit” System)

The facility utilized a hiring prioritization list to permit HR personnel to focus their time
and energy on recruitment and processing of applicants that were mission-critical as
defined by the individual Services’ priority listing. Because the nursing staff working in
the GI Service are organizationally aligned under Nursing Service, Nursing Service
designates the hiring priority.

Multiple interviewees told us that GI nurse staffing did not rank high enough to be
included on the Nursing Service priority list. We found that critical GI positions were not
always announced and filled timely. For example, the previous GI nurse manager
retired in July 2009, but the position was not announced until September 2011, and the
selectee did not begin duty until February 12, 2012. For more than 2 years, this critical
role was filled by an “acting” GI nurse manager. Further, in late 2009-early 2010, VISN
and facility leaders agreed that the facility needed a FOBT coordinator. The position
was approved but was later rescinded. A FIT coordinator10 position was not approved
until August 2012 or hired until September 2012.

Multiple interviewees referenced the “priority list” as a major obstacle to securing
needed clinical resources.

Hiring Process11

The former CoS testified in reference to hiring that it was taking “a considerable period
of time to bring new staff on board.” From the time of selection, it often took several

9
  Medical Center Memorandum 544-708, Planning Council, March 2, 2011. 

10
   The facility elected to use FIT testing rather than FOBT testing.

11
   The AIB concluded that the entire Nursing Service was limited to one support HR Specialist, and that HR was

understaffed compared with VISN and national averages and the national VHA staffing goals. 




VA Office of Inspector General                                                                               7
                      Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC


months to complete the selectee’s reference checks and VetPro (credentialing and
privileging) requirements, and then secure approval through the Professional Standards
Board (PSB).

HR provided information showing that a GI registered nurse (RN) position was
announced on March 10, 2011. The certification listing the qualified applicants was sent
to Nursing Service on April 20, with a response required date of May 11. However,
Nursing Service did not return the certification with their selections to HR until
September 19, and the selectees12 did not enter on duty until January 3 and February
12, 2012, respectively.

On February 8, 2012, the CoM forwarded a memorandum to the Planning Council
requesting to recruit a clinical nurse case manager and a data manager to support the
CRC screening, tracking, and surveillance program. The Council denied the positions
but did authorize a clinical nurse (case) manager position to be assigned to Primary
Care to manage CRC-related patient tracking and coordination. While that position was
approved in February, it was not filled until July even though the selectee transferred
from another position in Primary Care and would not have required reference checks,
VetPro completion, or PSB approval.

The following table shows the authorized and actual FTE from FY 2011 to FY 2012 and
FY 2013 as of about the 2nd quarter.

               2011                                    2012                                    2013

Authorized                             Authorized                              Authorized
                   Actual FTE                              Actual FTE                              Actual FTE
FTE                                    FTE                                     FTE

25.7               20.7                33.6                22.6                35.7                28.8

        FTE includes physicians, nurses, and clerical staff.

Based on consult tracking data and interviews with GI clinical managers, the GI staffing
situation as of April 2013 appears to be sufficient to manage demand at this time;
however, adequate staffing must be maintained to prevent future GI delays and
backlogs. While conditions have substantially improved, important GI positions are still
in flux. For example, the GI Section Chief stepped down in December 2012 and the GI
nurse manager stepped down in late May 2013 citing concerns over resources and
support.

Allegation 2. Decision-Making and Patient Care

We were unable to determine whether non-clinical staff and facility leaders were making
clinical decisions regarding patient care without input of the clinical experts and process


12
  Nursing Service selected two nurses from this certification. One of the original selectees withdrew her application
so an alternate applicant was selected.


VA Office of Inspector General                                                                                     8
                   Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC


owners. It did appear, however, that due to a lack of appropriate clinical triage, some
patients were scheduled for procedures that were not indicated.

The complainant alleged that non-physicians, including clerical staff, were giving
medical directions to patients related to preparation for their procedures, and as a
result, patients were taking needless laxatives or double doses of laxatives, or came
into the facility for unnecessary colonoscopies. However, no one could provide us with
a list of patients who had allegedly been given improper instructions by non-clinical
staff. We confirmed a case where the patient completed an unnecessary preparation
(taken needless laxatives) for a colonoscopy that was not indicated; however, we could
not determine the extent of the problem beyond this case. We reviewed Patient
Advocate reports for FY 2012 and found no evidence of patient complaints related to
this issue.

In September 2012, an influx of gastroenterologists, GI nurses, and GI technicians from
other VHA medical centers came to the facility to assist in reducing the colonoscopy
backlog. The facility opened OR space for the additional endoscopy procedures and
leased equipment to meet the backlog elimination deadline in late October. According
to the complainant, the GI clinicians had no input into this “blitz” effort; rather, it was
being coordinated by non-clinicians.

The complainant perceived that the GI Service was “in chaos” because non-clinicians
were making clinical decisions. We confirmed that facility leadership committed to, and
basically met, a remediation deadline of October 26, 2012. While this blitz approach
was likely “chaotic” at times, we did not find evidence that patients were harmed as a
result of it.

Allegation 3. Use of Fee Care Funds

We substantiated that VISN 7 gave the facility $1.02M in early September 2011 to use
to address the GI backlog but that only approximately $275,000 was actually used for
this purpose through August 2012. The Business Office was not aware that the
additional monies were “earmarked” to address the GI backlog and obligated the funds
as usual.

The VISN 7 CFO told us that although the facility was given $1.02M expressly to
address the GI backlog, they did not have to report back to the VISN on how the funds
were used. The CFO reported that facilities may use their discretion to determine how
to best meet the needs of their patients; however, fee care was specifically identified as
a mechanism to reduce the backlog.

The facility authorized about 250 GI-related fee referrals from August–December 2011
as part of the already established 1358 (a VA document used to obligate funding for
goods and services) obligations. The facility did not have a list of the original 700
patients reportedly requiring urgent GI consults so could not tell us: (1) whether any of




VA Office of Inspector General                                                                  9
                      Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC


the 250 patients who did receive GI fee care were part of that 700, or (2) whether any of
the 700 patients actually received fee colonoscopies during the Fall of 2011.13

In January 2012, the GI Task Force determined that another 700 patients14 cancelled
from the 3rd endoscopy room also required fee referrals for GI procedures in the
community. On January 10, however, the former CoS sent an email to the Business
Office indicating not to “…send out anymore non-VA care GI requests for endoscopy
until further notice.” He stated they were in the process of “…attempting to internalize
as many of these 700 cases as possible.” Data provided by the facility’s Business
Office reflects that about 100 patients received colonoscopies via fee care between
January 1–March 29, 2012. In-house colonoscopies during this same time period
decreased from the previous quarter.

Issue 2.          Other Contributing Factors

Fee Care Program

The increased GI demand at a time when GI staffing was down and fee resources were
reduced contributed to the GI backlog.

Growth in Demand for Medical Services. In anticipation of a budget shortfall, the acting
VISN Director requested a complete financial review. On September 2, 2011, a VHA-
led financial review team issued its report of financial management practices in VISN 7.
That report commented on, among other things, the growth and cost of the fee care
program VISN-wide. Specifically, “VISN 7 leads the country in FY 2011 in adding new
unique patients (5.9 [percent] growth rate) and this has challenged their capacity to
absorb new workload in house (19,000 new unique patients through May of 2011).” As
a result, “VISN 7 has addressed improving access by sending increasing numbers of
patients into the private sector to obtain specialty care… The cumulative effect since
2009 of increasing pre-authorized outpatient care has been a rapid and unsustainable
increase in purchased care.” Since 2006, the facility’s fee program has grown 433
percent, with an average fee cost per unique patient of $831 (130 percent of the
national norm). The financial review team recommended a reorganization of the
delivery model to “bring both inpatient and ambulatory care (especially specialty care) in
house.”

Fee Payments and Access. In FY 2011, the facility had a backlog of unpaid fee
authorizations. According to the Chief of the Business Office, the problems may have
occurred because the facility had an overlap where they were using two
authorization/invoice payment systems while they were transitioning to a new system.
Many community providers stopped accepting VA patients and it “took a lot of service

13
   In late August 2011, the CoM e-mailed the acting Associate Director and copied the CoS, Deputy CoS, and Chief
of the Business Office, describing what he thought to be the status of the GI and echocardiogram fee referrals, and
wrote, “I have asked GI and Cards [Cardiology] to hold on feeing out until we get confirmation of numbers (on
cases that can be safely deferred until after the first of the year.)” It is unknown whether this e-mail had any impact
on fee referrals at that time.
14
   The original estimate of 700 patients was later revised upward to 857 patients.


VA Office of Inspector General                                                                                      10
                   Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC


recovery to re-establish the links within the community.” The facility received additional
funding from the VISN in September 2011 to address the outstanding fee care bills.

Fee Usage. VHA’s task force on subspecialty productivity and access evaluated the
facility’s use of community fee care for GI-related procedures using specified current
procedural terminology (CPT) codes. The chart below shows the change in the
availability of/use of this resource between FY 2009–FY 2012.

                                 GI Fee Costs, in thousands
 $800            $706 

 $600

 $400
                                       $120                                        $154 
 $200
                                                              $5 
   $0

                FY 2009               FY 2010               FY 2011               FY 2012



We could not independently duplicate, and the facility’s data did not approximate, the
data as described in the graph. The discrepancies could be due to data retrieval
techniques, date ranges used, and the timing of invoice payments. In any event, all
analyses of fee care data showed a reduction in the use of fee care in FY 2010–2011 in
comparison to other years.

In prior years, GI fee referrals had helped to reduce backlogs. We understand that
there was a concerted effort to reduce all fee care and bring those services back “in-
house,” so the timing of this effort, in the context of increasing demand and reduced GI
staff, contributed to the backlog.

In June 2012, the facility implemented a non-VA care coordination (NVCC) program to
better manage fee and other community-based care through use of a case
management model. Nurses and clerks coordinate patients’ appointments with
community providers, secure after-visit documentation of the services provided and care
recommendations, and assure that provider invoices are linked to appropriate clinical
documentation for bill payment purposes.

GI Service Demand

FIT is an annual screening test for CRC that requires close tracking and follow-up to
assure that patients with positive screening results are scheduled for, and receive,
diagnostic colonoscopies within 60 days of a positive result. We were told that in 2009–
2010, when VHA expanded the CRC screening options for low-risk patients to be
screened via colonoscopy, many primary care providers “defaulted” to colonoscopy as
the primary screening method for all patients regardless of risk level. As part of its
review in August 2012, VHA’s task force on productivity and access calculated the



VA Office of Inspector General                                                                 11
                       Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC


facility’s GI workload; the data showed a bolus of colonoscopies in FY 2010.                                   The
facility has since revised its CRC screening practices for low-risk patients.

Consult Management

The facility did not utilize the electronic consult management package or electronic
waiting list (EWL) appropriately, and facility leaders did not monitor the status of GI and
other consults facility-wide.

During its initial evaluation of the GI consult status and deficiencies, the GI Task Force
determined that clerks and other responsible personnel were not using the correct
consult tracking categories.15 The facility also found that staff were not properly linking
progress notes and other reports to consults, so they were not being closed out
correctly in the computerized patient record system (CPRS). Through an administrative
review process, the facility removed duplicate consult requests, identified those pending
community fee care, and closed-out in CPRS those consults that had actually been
addressed but not correctly documented or linked. Clinical staff then triaged the
remaining consults into priority groups for further action.

Electronic waiting list. In addition, the facility was not using the EWL as required. The
EWL is VHA’s official wait list and is used to list patients waiting to be scheduled, or
waiting for a panel assignment. In general, the EWL is used to keep track of patients
with whom the clinic does not have an established relationship (e.g., the patient has not
been seen before in the clinic).16

Consult tracking functions. The Consult Tracking System offers a variety of reports;
however, the GI Service had not routinely generated any of these reports. Had these
consult tracking reports been generated, they would have provided facility leaders with
a clear indication of the growing backlog. The former CoS testified that the facility did
not monitor the consult process “the way we should have,” and that the facility leaders
left this task to the GI Clinic and the Department of Medicine.

Leadership Stability, Communication, and Competing Priorities

As the GI situation at the facility was unfolding, critical leadership positions were filled
by a series of managers. Over the past few years, there have been three VISN
Directors and at least three VISN CMOs, five Medical Center Directors, three Associate
Medical Center Directors, and four CoMs. Many of these leaders served in an acting or
interim capacity and had significant collateral assignments at the time. While we
acknowledge that the CoS and CNE had been stable in their positions for more than 10
years, their actions did not provide the critical leadership and continuity needed in this
case.


15
  The GI Task Force believed and documented that 310 of the estimated 700 patients that had been sent to Fee
Service for processing had been scheduled.
16
     VHA Directive 2010-027, VHA Outpatient Scheduling Processes and Procedures, June 9, 2010


VA Office of Inspector General                                                                                  12
                   Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC


Clinical and administrative leaders should have understood the urgent nature of the GI
consult backlog and the need for effective and timely actions to resolve it. The facility
did request and receive VISN funding to support GI fee referrals in the community.
However, facility leadership did not communicate to the Business Office that additional
funds were available and earmarked specifically to address the GI consult backlog did
not create a structure to assure that the 700 “critical” cases received the needed
services, and did not track the remainder of the backlogged GI consults to assure they
were appropriately addressed. Leadership deferred management of these cases to the
Service and section chiefs, but did not provide adequate human resources to support
this effort.

Quality Management Activities and Involvement

VISN and facility leaders became aware of the GI consult backlog in July 2011 and the
facility initiated a GI Task Force in January 2012 to evaluate the issues and develop an
action plan. Despite this, the [acting] Quality Manager was “…excluded from
discussions regarding clinical backlogs and did not become aware of the GI Clinic
backlog until the OIG visit in February of 2012.”

The OMI also noted in their report, “The Medical Center leadership and clinical staff had
not involved the Patient Safety, Quality Management, Risk Management, and Veterans
Affairs Surgical Quality Improvement Program (VASQIP) staff in the issue of the
gastroenterology (GI) backlog until identifying the index Veteran.             Improved
communication might have heightened the urgency of concern in their response to GI
systems issues.”

                                     Conclusions 

VISN and facility leaders became aware of the GI consult backlog involving 2,500
delayed consults, 700 of them “critical,” in July 2011. A funding request was made at
that time and the VISN awarded the facility $1.02M for fee colonoscopies in September
2011; however, facility leaders did not assure that a structure for tracking and
accountability was in place. By December, the backlog stood at 3,800 delayed GI
consults. The facility developed an action plan in January 2012 but did not make
progress in reducing the backlog. An adverse event in May 2012 prompted facility
leaders to re-evaluate the GI situation, and facility, VISN, and VHA leaders aggressively
pursued elimination of the backlog. This was essentially accomplished by late October
2012. However, during the review “look-back” period, 280 patients were diagnosed with
GI malignancies, 52 of which had been associated with a delay in diagnosis and
treatment. The facility completed 19 institutional disclosures and 3 second-level
reviews are still pending. As of May 2013, nine patients and/or their families had filed
lawsuits. The remaining 30 cases did not meet criteria for institutional disclosure as
determined by clinical staff during a second-level review.

The facility had experienced GI consult delays in the past but had been able to address
the backlogs. In this case, however, a confluence of factors “set the stage” for the GI
backlog and hampered efforts to improve the condition:


VA Office of Inspector General                                                                 13
                   Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC


   	 The membership of the facility’s Planning Council, which approved staffing
      requests, consisted largely of non-clinical personnel. Clinical FTE positions were
      difficult to get approved.

   	 Despite repeated requests, Nursing Service did not promptly hire GI nurses, and
      critical positions went unfilled for long periods.

   	 The 2011 Financial Review Team reported that the facility’s fee care program
      has grown 433 percent since 2006, and facility leaders made a concerted effort
      to reduce all fee care and bring those services back “in-house.” The fee care
      program had been used in the past to address backlogs.

   	 When VHA expanded the CRC screening options for low-risk patients, many
      primary care providers “defaulted” to colonoscopy as the primary screening
      method for all patients regardless of risk level, which increased demand for this
      service.

   	 Responsible staff members did not consistently and correctly use the consult
      management reporting system or EWL, and as a result, did not have data and
      reports alerting them to the scope of the GI consult backlog problem.

   	 As the GI situation was unfolding, critical VISN and facility leadership positions
      were filled by a series of managers who often had collateral duties and differing
      priorities. While these leaders did not ignore the GI situation, they also did not
      take immediate and aggressive actions to remediate the condition.

   	 The [acting] Quality Manager and other key QM managers were excluded from
      discussions regarding clinical backlogs and did not become aware of the GI
      backlog until February 2012. Improved communication might have heightened
      the urgency of concern in response to GI systems issues.

The GI consult backlog has been the subject of multiple internal and external reviews
resulting in a myriad of recommendations to improve operations. Overall, the facility
has responded to those recommendations and the GI backlog has resolved. We note,
however, that the conditions identified in this report were often complex and long-
standing, and that responsibility for the various functions was spread across several
clinical and administrative areas. As such, ongoing communication and continued
vigilance is needed to ensure that the conditions do not recur.

                                 Recommendation 

Recommendation 1. We recommend that, in accordance with the Administrative
Investigation Board conclusions and recommendations, Veterans Integrated Service
Network leaders take appropriate action in relationship to leadership deficits contributing
to the gastroenterology consult backlog.




VA Office of Inspector General                                                                 14
                  Gastroenterology Consult Backlog, William Jennings Bryan Dorn VAMC, Columbia, SC
                                                                                      Appendix A

                            VISN Director Comments


               Department of
               Veterans Affairs                                      Memorandum


      Date:       August 19, 2013

    From:       VISN Director (10N7)

   Subject: Healthcare Inspection – Gastroenterology Consult Backlog,
            William Jennings Bryan Dorn VAMC, Columbia, SC

       To:     DUSHOM (10N)

       Thru: VHA 10AR MRS OIG Hotlines



                1. 	 The VISN 7 Network Office and the Dorn (Columbia) VAMC
                    have reviewed the subject OIG Report and concur with the final
                    recommendation.         We confirm that numerous process
                    improvements have been implemented, and that we are
                    actively tracking all of the AIB recommendations through to
                    completion.

                2. Specific to this report, I have detailed our plan for completion of
                   the AIB Administrative Recommendations as requested within
                   this report.

                3. If there are any questions, please contact Dr. Robin Hindsman,
                   VISN 7 QMO at 678-924-5723.




                    (original signed by Dr. Robin S. Hindsman, DND for:)
                    Charles E. Sepich, FACHE




VA Office of Inspector General                                                            15
                   Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC



Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommend that, in accordance with the Administrative
Investigation Board conclusions and recommendations, Veterans Integrated Service
Network leaders take appropriate action in relationship to leadership deficits contributing
to the gastroenterology consult backlog.

Concur

At the William Jennings Bryan Dorn VA Medical Center in Columbia, S.C., the
Administrative Investigation Board made three recommendations for administrative
action regarding leadership deficits. The VISN Director reviewed the findings and
recommendations and has proceeded to take appropriate actions. The status of actions
on each recommendation is:

      Administrative Action 1: The subject of this administrative action retired from
       VHA. No further administrative action is warranted.
      Administrative Action 2: Recommended administrative action on the subject of
       this recommendation is underway. VHA expects to complete this administrative
       action by August 30, 2013.
      Administrative Action 3: Recommended administrative actions on the subject of
       this recommendation have been initiated and, per policy, are under review by the
       Office of General Counsel. The completion date for Administrative Action 3 will
       be established when VHA receives General Counsel’s recommendations on the
       proposed actions.

National VHA leadership considers delays in consult responsiveness to be of significant
concern. VHA Central Office (VHA CO) leadership took specific steps to address these
issues in Columbia as well as system-wide. Specifically in relation to Columbia, VHA
CO leadership sent the Office of the Medical Inspector (OMI) to review allegations; sent
a VACO subject matter expert (SME) team to conduct a site visit to assist in identifying
patients from the GI backlog list who were “in need of GI services”; arranged for
additional GI physicians, nurses, and technicians from across VHA to work down the GI
consult backlog; created a tasked a group on specialty care to assess GI Service’s
physician productivity, access, and staffing concerns; and chartered an AIB to “conduct
a thorough investigation into allegations of clinical mismanagement” related to the GI
consult backlog.

In January 2013, VHA undertook a national review of open consults to gain a better
perspective on nation-wide demand for consultative services. This review is still in
progress.



VA Office of Inspector General                                                                 16
                   Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC


VHA found that facilities use the consultation software package in the electronic health
record for a variety of purposes, such as for conveying that a patient is interested in
talking with a clerk about scheduling an annual physical exam next year. Unclosed
consults for administrative services inflate the data on open consults and misrepresent
the demand for clinical consultative services. In May 2013, VHA launched an initiative
to standardize use of the clinical consultation software package in the electronic health
record. Standardized consultation processes will generate more accurate data on
demand for and provision of consultative services, which can then be used to inform
decisions on resource allocation.

VHA has developed processes and a database for tracking consult resolution. All
facilities have certified completion of a look-back review for high-interest unresolved
consults. VHA expects consultative services to address all unresolved consults during
Fiscal Year 2014.




VA Office of Inspector General                                                                 17
                   Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC
                                                                                      Appendix B

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Toni Woodard, BS
                         Victoria Coates, LICSW, MBA
                         Sheyla Desir, RN, MSN
                         Matt Frazier, MPH, MBA
                         Lesa Gann, RN, LCSW
                         Tishanna McCutchen, ARNP, MSN
                         Michael Shepherd, MD
                         Karen Sutton, BS
                         Joanne Wasko, LCSW
                         Robert Yang, MD




VA Office of Inspector General                                                                 18
                   Gastroenterology Consult Delays, William Jennings Bryan Dorn VAMC, Columbia, SC
                                                                                      Appendix D

                                  Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Southeast Health Care Network (10N7)
Director, WJB Dorn VA Medical Center, Columbia, SC (544/00)
Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Lindsey Graham, Tim Scott
U.S. House of Representatives: James E. Clyburn, Joe Wilson



This report is available on our web site at www.va.gov/oig.




VA Office of Inspector General                                                                 19
